                                        National Science Foundation
                                           4201 Wilson Boulevard
                                          Arlington, Virginia 22230

Office of Inspector General




MEMORANDUM

DATE:              September 28, 2007

TO:                David A. Elizalde, Director
                   Division of Acquisition and Cooperative Support (DACS)

FROM:              Deborah H. Cureton /s/
                   Associate Inspector General for Audit

SUBJECT: NSF OIG Audit Report No. OIG-07-1-016, Audit of VECO USA, Inc.’s
         Disclosure Statement and Cost Impact Proposal

In response to NSF’s request for audit support, we contracted with the Defense Contract Audit
Agency (DCAA), Denver Branch Office, to perform an audit of VECO USA, Inc.’s (VECO)
revised Cost Accounting Standards (CAS) Disclosure Statement effective April 1, 2003, and
VECO’s cost impact proposal reflecting the cost impact of a proposed change in cost accounting
practice, effective April 1, 2003 to the completion of NSF Contract No. OPP-0001041 on May
31, 2005. The purpose of this cost-plus-fixed-fee contract, with total funding of $46,481,849,1 is
to provide arctic research logistics support services for NSF, Office of Polar Programs (OPP).

The objectives of the audit were to:
       • Determine whether 1) VECO’s Disclosure Statement revision adequately describes
           the revised cost accounting practices VECO plans to use on its NSF contract, and 2)
           VECO’s revised practices, as described, comply with CAS and Federal Acquisition
           Regulations (FAR) Part 31 and are consistent with the contractor’s actual practices;
           and
       • Determine the proper categorization of VECO’s proposed change in accounting
           practice (i.e., whether the change is required, unilateral, or desirable)2, and the cost


1
 Reference Modification No. 23 to Contract OPP-0001041, dated March 21, 2007.
2
 FAR 52.230-2(a)(4) provides for the following types of accounting changes (and their treatment): (i) A required
change resulting from either the implementation of a new standard or a prospective change from one compliant
practice to another that is necessary for the contractor to remain in compliance (equitable adjustment); (ii) A
unilateral change that is not deemed desirable by the CFAO (no increased costs to the government); and (iii) A
desirable change that is determined to be desirable and not detrimental to the government by the CFAO (equitable
adjustment).
            impact of the change from the time of the change (April 1, 2003) to the completion of
            the NSF contract (May 31, 2005).

DCAA issued two audit reports to address these objectives.3 The audits were performed in
accordance with generally accepted government auditing standards and are included as
attachments to this memorandum.

As background, in a letter to NSF dated December 9, 2003, VECO proposed an accounting
change to the general and administrative (G&A) base it uses to allocate its G&A expense pool.
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxx NSF approved VECO’s proposed change to its G&A base effective April
1, 2003, by letter dated June 27, 2005, and stated that NSF would evaluate this change in
accordance with the FAR to ensure that the change is desirable.4 On May 18, 2006, VECO
submitted to NSF: 1) a revised Disclosure Statement retroactive to April 1, 2003, and 2) a
detailed cost impact proposal, reflecting VECO’s agreement to put xxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

In its report on VECO’s revised Disclosure Statement, DCAA examined VECO’s proposed
change xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx. The auditors
noted that the NSF Contracting Officer, who is also the cognizant federal agency official
(CFAO) for VECO, had determined that this change was a desirable one for the government.
DCAA concluded that VECO’s Disclosure Statement revision adequately described VECO’s
revised cost accounting practices for the NSF contract. Also, DCAA found that the revised
accounting practice, as described, complied with applicable CAS and FAR Part 31 and was
consistent with the contractor’s actual practices.

In its report on VECO’s cost impact proposal, DCAA again noted that the CFAO had determined
this accounting change to be a desirable change for the government. DCAA took no exception to
VECO’s proposed cost impact of xxxxxxxxxx, increasing by approximately xxxxxxxx the total
costs to the NSF contract for the period April 1, 2003 to the completion of the NSF contract on
May 31, 2005. DCAA did not express an opinion on VECO’s proposed increased fee/profit to
NSF of xxxxxxxxxx because fee/profit determinations are made by the Contracting Officer.


3
  Reference attached DCAA Report Nos. 3121-2006B19100008, Review of Cost Accounting Standards Disclosure
Statement, Retroactive Change to April 1, 2003, dated December 19, 2006; and 3121-2006B19500001, Review of
Cost Impact of Changes to Cost Accounting Standards Disclosure Statement, Retroactive Change to April 1, 2003 –
Revised, dated February 15, 2007.
4
  Reference 48 CFR 9904.410-50(d).
5
  Reference FAR 52.230-2(a)(4)(iii).
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx



                                                      2
However, in a separate report7, we comment on the reasonableness of VECO’s proposed
increased fee/profit. The auditors recommended an equitable adjustment to the contract be
negotiated with VECO in accordance with FAR 52.230-2(a)(4)(iii) to reflect the increased cost
impact of the accounting change on the NSF contract.

By means of Contract Modification No. 22, dated January 3, 2007, the NSF Contracting Officer
incorporated VECO’s proposed accounting change to the G&A base into the NSF contract.
Additionally, in Contract Modification No. 23, dated March 21, 2007, NSF approved an
equitable adjustment amounting to xxxxxxxxxxx.

VECO agreed with the findings in the DCAA reports. However, NSF Contract No. OPP-
0001041 should not be closed until NSF considers and responds to the finding and
recommendation in the separate OIG report referred to above.

We are providing a copy of this memorandum to the Director of the Office of Polar Programs.
The responsibility for audit resolution rests with DACS. Accordingly, we ask that no action be
taken concerning the report’s findings without first consulting DACS at (703) 292-8242.


OIG Oversight of Audit

To fulfill our responsibilities under Government Auditing Standards, the Office of Inspector
General:

    •   Reviewed DCAA’s approach and planning of the audit;
    •   Monitored the progress of the audit at key points;
    •   Coordinated periodic meetings with DCAA and OIG management to discuss audit
        progress, findings and recommendations;
    •   Reviewed the audit reports prepared by DCAA to ensure compliance with Government
        Auditing Standards and Office of Management and Budget Circulars; and
    •   Coordinated issuance of the audit report.

DCAA is responsible for the attached audit reports on VECO and the conclusions expressed in
the reports. The NSF OIG does not express any opinion on VECO’s CAS Disclosure Statement,
VECO’s cost impact proposal, or the conclusions presented in DCAA’s audit reports.




7
 Reference NSF OIG Audit Report No. 07-02-008, Review of Reasonableness of VECO USA, Inc.’s Proposed
Increased Fee Associated with an Accounting Change.



                                                    3
We thank you and your staff for the assistance extended to us during the audit. If you have any
questions about this report, please contact Jannifer Jenkins at (703) 292-4996 or David Willems
at (703) 292-4979.




Attachments:
    DCAA Audit Report No. 3121-2006B19100008, Review of Cost Accounting Standards
    Disclosure Statement, Retroactive Change to April 1, 2003, dated December 19, 2006

    DCAA Audit Report No. 3121-2006B19500001 (Revised), Review of Cost Impact of Changes
    to Cost Accounting Standards Disclosure Statement, Retroactive Change to April 1, 2003 –
    Revised, dated February 15, 2007

cc: Karl Erb, Director, OPP
    Mary Santonastasso, Director, DIAS




                                              4
             DEFENSE CONTRACT AUDIT AGENCY

            AUDIT REPORT NO. 3121–2006B19100008

                                                               December 19, 2006
PREPARED FOR: Associate Inspector General for Audit
              National Science Foundation
              ATTN: David Willems, Audit Manager
              4201 Wilson Boulevard
              Arlington, VA 22230

PREPARED BY:      DCAA Denver Branch Office
                  7112 West Jefferson Avenue, Suite 200
                  Lakewood, CO 80235-2327
                      Telephone No.     (303) 969-5000
                      FAX No.           (303) 969-5056
                      E-mail Address    dcaa-fao3121@dcaa.mil

SUBJECT:          Review of Cost Accounting Standards Disclosure Statement, Retroactive
                  Change to April 1, 2003

REFERENCES:       Relevant Dates: See Page 4

CONTRACTOR:       VECO Federal, Inc.
                  9000 East Nichols Avenue, Suite 250
                  Centennial, CO 80112-3474

REPORT RELEASE RESTRICTIONS: See Page 5

                                                                                   Page
CONTENTS:         Subject of Audit                                                  1
                  Scope of Audit                                                    1
                  Statement of Changes                                              2
                  Results of Audit                                                  2
                  Contractor Organization and Systems                               3
                  DCAA Personnel and Report Authorization                           4
                  Audit Report Distribution and Restrictions                        5




                      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 3121-2006B19100008


                                     SUBJECT OF AUDIT

        In response to your August 8, 2006 request, we examined the VECO Federal, Inc.
(VECO) revised disclosure statement, dated May 18, 2006. By submitting its revised Cost
Accounting Standards (CAS) disclosure statement, VECO asserts that the disclosure statement
adequately describes its cost accounting practices, and the disclosed practices comply with Cost
Accounting Standards Board rules, regulations, and standards contained in 48 C.F.R Chapter 99.
The purpose of our examination was to determine whether VECO’s revised disclosure statement,
dated May 18, 2006 and retroactive to April 1, 2003 adequately describes the cost accounting
practices that the contractor proposes to use in performing Government contracts covered by 48
C.F.R. Chapter 99, and whether the revised practices comply with applicable CAS and FAR Part
31.

        The contractor is responsible for the disclosure statement and compliance of the disclosed
accounting practices with applicable CAS and FAR Part 31. Our responsibility is to express an
opinion on the adequacy of the disclosure statement and whether the disclosed accounting
practices comply with those requirements based on our examination.

                                      SCOPE OF AUDIT

       We conducted our examination in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
reasonable assurance about whether the contractor has complied with the requirements referred
to above. An examination includes:

       •   evaluating the contractor's internal controls, assessing control risk, and determining
           the extent of audit testing needed based on the control risk assessment;
       •   examining, on a test basis, evidence relating to the descriptions of the proposed cost
           accounting practices;
       •   assessing the descriptions of the revised cost accounting practices proposed and
           determining whether they describe practices which, when implemented, should be
           compliant with applicable requirements; and
       •   evaluating the overall disclosure statement presentation.

       We evaluated the contractor’s revised disclosure statement using applicable requirements
contained in the:

       •   Federal Acquisition Regulation (FAR); and
       •   CAS Board rules, regulations and standards.

       As explained in the Contractor’s Organization and Systems section of this report we
consider VECO’s overall accounting system to be adequate, as reviewed in DCAA Audit Report
No. 3121-2004E17740014 dated July 30, 2004.


                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 3121-2006B19100008


        The scope of our examination reflects our assessment of control risk and includes audit
tests designed to provide a reasonable basis for our opinion. Our examination does not provide a
legal determination on VECO’s compliance with the specified requirements.

                                STATEMENT OF CHANGES

       The subject disclosure statement revision reflects the following change to the contractor's
accounting practices and is effective retroactive to April 1, 2003.

xxxxxxxxxxxxxxxxxxxxxxxxxxx xxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxx xxxxxxxxxxxxxxxxxxxxxxxxxxx

      The desirable change agreed to by the contracting parties is subject to negotiation with
the CFAO for an equitable adjustment under FAR 52.230-2(a)(4)(iii).

                                     RESULTS OF AUDIT

       In our opinion, the subject revision adequately describes the contractor's revised cost
accounting practices. The practices, as described, comply with applicable CAS and FAR Part 31
and are consistent with the contractor’s actual practices.

       As requested, we are currently reviewing the cost impact related to the change in the
revised disclosure statement under assignment no. 3121-2006B19500001.

      We discussed the results of our examination with xxxxxxxxxxxxxxxxxxxxxxxxxxx and
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx, in an exit conference held on December 14,
2006. VECO concurred with the results of our examination.




                                                2

                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 3121-2006B19100008


                    CONTRACTOR ORGANIZATION AND SYSTEMS

1.     Organization:
        VECO is a subsidiary of VECO Corporation, which was incorporated May 16, 1979, in
the State of Delaware. VRM is an Engineering, Procurement, Construction, and Operations and
Maintenance and Management Services business. VECO’s sales totaled xxxxxxxxxxx for FY
2006, of which xxxxxxxxxxxxxxxxxxxxxx, were sales to the Government. VECO has xxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

2.     Accounting System:
       We consider VECO’s overall accounting system to be adequate, as reviewed in DCAA
Audit Report No. 3121-2004E17740014 dated July 30, 2004

       VECO's accounting period is from April 1 to March 31. VECO maintains an accounting
system on the accrual basis in accordance with generally accepted accounting principles. The
accounting system is posted on a current basis, and appropriate adjusting entries are made at the
end of each month and at year end. VECO uses Trueline software for its accounting system.
VECO Corporation and the subsidiaries’ financial statements are prepared on a semiannual and
annual basis. VECO’s annual financial statements are audited by external CPAs.

        VECO maintains a job cost accounting system which is fully integrated in the overall
accounting system, wherein contracts are assigned individual project numbers and direct costs
are identified and charged to those numbers. Indirect costs are identified with and accumulated
under individual departments, which in turn are identified to the various indirect cost pools. The
following schedule describes VECO’s indirect cost pools and related allocation bases:

                            Indirect Cost Pools and Allocation Basis

   Indirect Cost Pool             Allocation Base
  xxxxxxxxxxxxxxxxxxxx            Xxxxxxxxxxxxxxxxxxxx
 Xxxxxxxxxxxxxxxxxxxx             Xxxxxxxxxxxxxxxxxxxx
 xxxxxxxxxxxxxxxxxx               Xxxxxxxxxxxxxxxxxxxx
 Xxxxxxxxxxxxxxxxxxxx             Xxxxxxxxxxxxxxxxxxxx
 xxxxxxxxxxxxxxxxxx               Xxxxxxxxxxxxxxxxxxxx




                                                3

                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 3121-2006B19100008


                                      DCAA PERSONNEL

                                                                     Telephone Number
Primary contacts regarding this audit:

         Xxxxxxxxxxxxxxxxxxxx                                     Xxxxxxxxxxxxxxxxxxxx
         Xxxxxxxxxxxxxxxxxxxx                                     Xxxxxxxxxxxxxxxxxxxx

Other contacts regarding this audit report:

         S. M. Wenger, Branch Manager                                 (303) 969-5000
         Xxxxxxxxxxxxxxxxxxxx                                     Xxxxxxxxxxxxxxxxxxxx

                                                                       FAX Number
         Denver Branch Office                                         (303) 969-5056
         Xxxxxxxxxxxxxxxxxxxx                                     Xxxxxxxxxxxxxxxxxxxx

                                                                      E-mail Address
         Denver Branch Office                                     dcaa-fao3121@dcaa.mil

General information on audit matters is available at http://www.dcaa.mil.

                                      RELEVANT DATES

           •   Date of CAS Disclosure Statement – dated May 18, 2006, retroactive to April 1,
               2003;
           •   Date of Request from VECO to adjust Disclosure Statement – December 9, 2003;
           •   Date of NSF Approval of Changes – June 27, 2005;
           •   Date of Request for Revised Disclosure Statement from NSF – May 1, 2006; and
           •   Date of Request for Audit – August 2, 2006.



AUDIT REPORT AUTHORIZED BY:



                                                           /s/ Vicki L. DeLeon for
                                                           S. M. WENGER
                                                           Branch Manager



                                               4

                            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 3121-2006B19100008


               AUDIT REPORT DISTRIBUTION AND RESTRICTIONS

DISTRIBUTION
                                                               E-mail Address
Associate Inspector General for Audit
National Science Foundation
ATTN: David Willems, Audit Manager                            dwillems@nsf.gov
4201 Wilson Boulevard
Arlington, VA 22230

Financial Liaison Advisor
ATTN: OAL-Sr. NONDOD-FLA Paulette Stephens              dcaa-srfla-nondod@dcaa.mil
8725 John J. Kingman Road, Suite 2135
Fort Belvoir, VA 22060-6219

Veco Federal, Inc
9000 East Nichols Avenue, Suite 250
Centennial, CO 80112-3474
(Copy furnished thru CFAO)

XXXXXXXXXXXXXX

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX




                                         5

                         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
             DEFENSE CONTRACT AUDIT AGENCY

            AUDIT REPORT NO. 3121–2006B19500001
                        (Revised)
                                                                 February 15, 2007

PREPARED FOR: Associate Inspector General for Audit
              National Science Foundation
              ATTN: David Willems, Audit Manager
              4201 Wilson Boulevard
              Arlington, VA 22230

PREPARED BY:      DCAA Denver Branch Office
                  7112 West Jefferson Avenue, Suite 200
                  Lakewood, CO 80235-2327
                      Telephone No.     (303) 969-5000
                      FAX No.           (303) 969-5056
                      E-mail Address    dcaa-fao3121@dcaa.mil

SUBJECT:          Review of Cost Impact of Changes to Cost Accounting Standards
                  Disclosure Statement, Retroactive Change to April 1, 2003 - Revised

REFERENCES:       Relevant Dates: See Page 5

CONTRACTOR:       VECO Federal, Inc.
                  9000 East Nichols Avenue, Suite 250
                  Centennial, CO 80112-3474

REPORT RELEASE RESTRICTIONS: See Page 6

                                                                                        Page
CONTENTS:         Subject of Audit                                                       1
                  Scope of Audit                                                         1
                  Results of Audit                                                       2
                  Contractor Organization and Systems                                    4
                  DCAA Personnel and Report Authorization                                5
                  Audit Report Distribution and Restrictions                             6




                          xxxxxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 3121-2006B19500001 (Revised)


                                     SUBJECT OF AUDIT

        As requested by your August 2, 2006 letter, we examined the VECO Federal, Inc.
(VECO) May 18, 2006 cost impact proposal reflecting the contractor’s cost accounting practice
change of its General and Administrative (G&A) indirect rate structure from a single element
base to a Total Cost Input (TCI) base, retroactive to April 1, 2003. Since the Cognizant Federal
Agency Official (CFAO) determined the accounting practice change is desirable, the contractor
is subject to the provisions of FAR 52.230-2(a)(4)(iii), and the parties will negotiate an equitable
adjustment.

       The cost impact proposal and related supporting data are the responsibility of the
contractor. Our responsibility is to express an opinion on the cost impact proposal based on our
examination.

                                       SCOPE OF AUDIT

       We conducted our examination in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the examination to obtain
reasonable assurance about whether the cost impact proposal is free of material misstatement.
An examination includes:

       •   evaluating the contractor's internal controls, assessing control risk, and determining
           the extent of audit testing needed based on the control risk assessment;
       •   examining, on a test basis, evidence supporting the amounts and disclosures in the
           cost impact proposal;
       •   assessing the accounting principles used and significant estimates made by the
           contractor; and
       •   evaluating the overall cost impact proposal presentation.

       We evaluated the contractor’s cost impact proposal using the applicable requirements
contained in the:

       •   Federal Acquisition Regulation (FAR) 30.6; and
       •   CAS Board Rules and Regulations, 48 CFR 9903.306.

        As explained in the Contractor Organization and Systems section of this report, we
consider VECO’s overall accounting system to be adequate, as stated in DCAA Audit Report
No. 3121-2004E17740014 dated July 30, 2004. Our audit scope reflects our assessment of
control risk and includes audit tests designed to provide a reasonable basis for our opinion.




                                xxxxxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 3121-2006B19500001 (Revised)


                                     RESULTS OF AUDIT

        In our opinion, the contractor has submitted data that are acceptable for negotiating the
cost impact due to the desirable change. We have determined that the desirable change will
result in increased costs to the Government on CAS-covered contracts and subcontracts in the
aggregate of xxxxxxxxxxx. We recommend that the CFAO negotiate an equitable adjustment in
accordance with FAR 52.230-2(a)(4)(iii). Our detailed findings and recommendations follow:

                                       VECO’s Proposal                    Results of Audit
                                                                             Increased
                                           Fee/Profit       Price          Accumulated
          Contract           Cost            xxxx          Amount              Cost
        OPP-0001041       xxxxxxxxxx      xxxxxxxxxx     xxxxxxxxxx        Xxxxxxxxxx

Explanatory Note

       a.      Summary of Conclusions:

              We take no exception to the proposed cost impact of xxxxxxxxxx increased costs
to the government. We do not express an opinion on the proposed fee/profit of xxxxxxx.

              Costs paid by the Government on flexibly priced contracts and subcontracts are
based on accumulated costs, not cost estimates. When cost accounting practice changes or CAS
non-compliances increase cost accumulations during performance of flexibly priced contracts
and subcontracts, the Government pays increased costs.

                Profit and fixed fees are generally based on estimated costs and are affected by
cost estimates that are prepared using noncompliant practices and cost accounting practice
changes during contract performance.

       b.      Basis of Contractor’s Proposal:

                VECO proposed the cost impact based on changing its disclosed practices
retroactive to April 1, 2003. VECO changed xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx percent was applied to NSF
Contract Number OPP-0001041. This rate also affects its incurred costs for CFYs 2004 and
2005 and invoiced costs for CFYs 2006 and 2007. VECO calculated the cost impact as the
difference between original xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxx.




                                                 2

                               xxxxxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 3121-2006B19500001 (Revised)

      c.     Audit Evaluation:

             We performed the following:

             •   Determined the proposed accounting change to VECO’s disclosed practices
                 adequate and compliant as stated in DCAA Audit Report No. 3121-
                 2006B19100008, dated December 19, 2006;
             •   Reviewed the May 18, 2006 cost impact proposal to ensure calculations
                 followed changes in the disclosure statement;
             •   Verified costs used to calculate the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                 comparing them to costs in VECO’s CFY 2004 and 2005 incurred cost
                 proposals, its initial CFY 2006 incurred cost proposal, and CFY 2007 invoices
                 for Contract No. OPP-0001041; and
             •   Determined VECO correctly applied the xxxxxxxxxxxxxxxxxxx.

      d.     Contractor’s Reaction:

              We discussed the results of our examination with xxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx, in an exit conference held on
January 12, 2007. VECO concurred in the results of our audit.




                                             3

                             xxxxxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 3121-2006B19500001 (Revised)


                    CONTRACTOR ORGANIZATION AND SYSTEMS

1.     Organization:
        VECO is a subsidiary of VECO Corporation, which was incorporated May 16, 1979, in
the State of Delaware. VECO is an engineering, procurement, construction, operations and
maintenance, and management services business. VECO’s sales totaled xxxxxxxxxxxxxxxx FY
2006, of which xxxxxxxxxxxxxxxxxxxxxxx, were sales to the Government. Xxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

2.     Accounting System:
       We consider VECO’s overall accounting system to be adequate, as provided in DCAA
Audit Report No. 3121-2004E17740014 dated July 30, 2004

        VECO's accounting period is from April 1 to March 31. VECO maintains an accounting
system on an accrual basis in accordance with generally accepted accounting principles. The
accounting system is posted on a current basis, and appropriate adjusting entries are made at the
end of each month and at year end. VECO uses xxxxxxxxxxxxxxxxx for its accounting system.
VECO Corporation and the subsidiaries’ financial statements are prepared on a semiannual and
annual basis. VECO’s annual financial statements are audited by external CPAs.

        VECO maintains a job cost accounting system that is fully integrated in the overall
accounting system, wherein contracts are assigned individual project numbers and direct costs
are identified and charged to those numbers. Indirect costs are identified with and accumulated
under individual departments, which in turn are identified to the various indirect cost pools. The
following schedule describes VECO’s indirect cost pools and related allocation bases:

                            Indirect Cost Pools and Allocation Basis

   Indirect Cost Pool             Allocation Base
 xxxxxxxxxxxxxxxxxxxxx            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 xxxxxxxxxxxxxxxxxxxxxx           Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
  xxxxxxxxxxxxxxxxxxxxx           Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 xxxxxxxxxxxxxxxxxxxxxx           Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
  xxxxxxxxxxxxxxxxxxxxx           Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx




                                     DCAA PERSONNEL


                                                4

                               xxxxxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 3121-2006B19500001 (Revised)



                                                                     Telephone Number
Primary contacts regarding this audit:

         Xxxxxxxxxxxxxxxxxxxx                                     Xxxxxxxxxxxxxxxxxxxx
         Xxxxxxxxxxxxxxxxxxxx                                     Xxxxxxxxxxxxxxxxxxxx

Other contacts regarding this audit report:

         S. M. Wenger, Branch Manager                                 (303) 969-5000
         Xxxxxxxxxxxxxxxxxxxx                                     Xxxxxxxxxxxxxxxxxxxx

                                                                        FAX Number
         Denver Branch Office                                          (303) 969-5056

         Xxxxxxxxxxxxxxxxxxxx                                     Xxxxxxxxxxxxxxxxxxxx

                                                                      E-mail Address
         Denver Branch Office                                     dcaa-fao3121@dcaa.mil

General information on audit matters is available at http://www.dcaa.mil.

                                      RELEVANT DATES

Date of CAS Disclosure Statement – May 18, 2006, retroactive to April 1, 2003;
Date of Request from VECO to adjust Disclosure Statement – December 9, 2003;
Date of NSF Approval of Changes – June 27, 2005;
Date of Request for Revised Disclosure Statement from NSF – May 1, 2006;
Date of Request for Audit – August 2, 2006; and
Date of Request for Revised Report – February 15, 2007.


AUDIT REPORT AUTHORIZED BY:



                                                           /s/ Vicki L. DeLeon for
                                                           S. M. WENGER
                                                           Branch Manager




                                               5

                                xxxxxxxxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 3121-2006B19500001 (Revised)


               AUDIT REPORT DISTRIBUTION AND RESTRICTIONS

DISTRIBUTION
                                                                 E-mail Address
Associate Inspector General for Audit
National Science Foundation
ATTN: David Willems, Audit Manager                              dwillems@nsf.gov
4201 Wilson Boulevard
Arlington, VA 22230

Financial Liaison Advisor
ATTN: OAL-Senior NONDOD-FLA xxxxxxxxxxxxxxxxxx              dcaa-srfla-nondod@dcaa.mil
8725 John J. Kingman Road, Suite 2135
Fort Belvoir, VA 22060-6219

VECO Federal, Inc
9000 East Nichols Avenue, Suite 250
Centennial CO 80112-3474
(Copy furnished thru CFAO)


XXXXXXXXXXXXXX

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX




                                          6

                             xxxxxxxxxxxxxxxxxxxxxxxxxxxx
